Report No. DODIG-2012-112                  July 18, 2012




     Reporting the Daily Location of Deployed Service
        Members Generally Adequate; However,
              the Navy Needed Improvement
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AFPC                  Air Force Personnel Center
ASN(M&RA)             Assistant Secretary of the Navy (Manpower and Reserve Affairs)
DCAPES                Deliberate and Crisis Action Planning and Execution Segments
DIMHRS                Defense Integrated Military Human Resources System
DMDC                  Defense Manpower and Data Center
DTAS                  Deployed Theater Accountability System
ITEMPO                Individual Personnel Tempo
PEO-EIS               Program Executive Office for Enterprise Information
                      Systems
PERSCO                Personnel Support for Contingency Operations
SIPRNET               Secure Internet Protocol Router Network
SPA                   Secure Personnel Accountability
WHS                   Washington Headquarters Service
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4800 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500




                                                                                       July 18, 2012

MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTH
                 AFFAIRS)
              ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Reporting the Daily Location of Deployed Service Members Generally Adequate;
         However, the Navy Needed Improvement
         (Report No. DODIG-2012-112)

We are providing this report for your information and use. We performed the audit in response
to a verbal request from senior officials in the Office of the Assistant Secretary of Defense
(Health Affairs). We considered management comments on a draft of this report when preparing
the final report. The Assistant Secretary of the Navy (Manpower and Reserve Affairs)
comments and a memorandum from the Secretary of Navy conformed to the requirements of
DoD Directive 7650.3 and left no umesolved issues. Therefore, we do not require any additional
comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8935.




                                             !lJ"~'Y'
                                                   U
                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. DODIG-2012-112 (Project No. D2011-D000LF-0206.000)                    July 18, 2012


              Results in Brief: Reporting the Daily
              Location of Deployed Service Members
              Generally Adequate; However, the Navy
              Needed Improvement

What We Did                                            What We Recommend
This audit was the result of a verbal request          We recommend that the Assistant Secretary of
from senior officials in the Office of the             the Navy (Manpower and Reserve Affairs) task
Assistant Secretary of Defense (Health Affairs).       the appropriate commands to establish roles and
Our overall objective was to assess DoD’s              responsibilities for implementing daily location
effectiveness in reporting the daily location of       reporting for deployed Service members
deployed Service members for use in health             required by DoD Instruction 6490.03,
surveillance. Specifically, we evaluated the           “Deployment Health,” August 11, 2006.
status of the Military Departments’
implementation of daily Service member                 Management Comments and
location reporting to Defense Manpower and
Data Center.
                                                       Our Response
                                                       The Assistant Secretary of the Navy (Manpower
What We Found                                          and Reserve Affairs) agreed with the
                                                       recommendation. We consider the comments
The Army, Air Force, and Marine Corps                  responsive. Please see the recommendation
reported the daily location of deployed Service        table on the back of this page.
members; however, the Navy did not report the
required deployment information. This
occurred because the Office of the Assistant
Secretary of the Navy (Manpower and Reserve
Affairs) did not task the appropriate Navy
commands to establish clear roles and
responsibilities for implementing the daily
location reporting requirements of
DoD Instruction 6490.03, “Deployment
Health,” August 11, 2006. As a result, the
Defense Manpower Data Center did not have
comprehensive DoD daily Service member
deployment records available for users to
monitor, assess, and control or reduce health
risks from Service member exposures to
occupational and environmental hazards.




                                                   i
Report No. DODIG-2012-112 (Project No. D2011-D000LF-0206.000)         July 18, 2012

Recommendation Table

                   Management                    Recommendation Requiring Comment
Assistant Secretary of the Navy (Manpower and    None
Reserve Affairs)




                                            ii
Table of Contents

Introduction                                                            1

      Objectives                                                        1
      Background                                                        1
      Review of Internal Controls                                       2

Finding. Army, Air Force, and Marine Corps Reported Location Data,
but the Navy Did Not                                                    3

      Army, Air Force, and Marine Corps Implemented Daily
       Location Reporting                                               3
      Navy Did Not Report Daily Location Data                           5
      Appropriate Navy Commands Not Tasked                              5
      Lack of Complete Data Hinders the Ability to Monitor Potential
       Hazardous Exposures                                              6
      Recommendation, Management Comments, and Our Response             7

Appendices

      A. Scope and Methodology                                          8
             Use of Computer-Processed Data                             8
             Prior Coverage                                             8
      B. Service Compliance With Required Reporting Data Elements      10

Management Comments

      Assistant Secretary of the Navy (Manpower and Reserve Affairs)   11
Introduction
Objectives
Our overall objective was to assess DoD’s effectiveness in reporting the daily location of
deployed Service members for use in health surveillance. Specifically, we evaluated the
status of the Military Departments’ implementation of daily Service member location
reporting to the Defense Manpower Data Center (DMDC). This audit was the result of a
verbal request from senior officials in the Office of the Assistant Secretary of Defense
(Health Affairs). See Appendix A for a discussion of our scope and methodology.

Background
DoD Instruction 6490.03, “Deployment Health,” (DoD Instruction) August 11, 2006,
requires the Military Departments to plan, program, and implement a system to ensure
daily location recording for all deployed personnel assigned, attached, on temporary duty,
or temporary additional duty to deployed units. The DoD Instruction required the
Services to report the daily location information electronically to DMDC at least weekly.
Also, the DoD Instruction required DoD to implement a system to ensure daily location
reporting within 3 years of its issuance date. The office of primary responsibility for the
DoD Instruction is the Under Secretary of Defense for Personnel and Readiness and the
action office is the Office of the Assistant Secretary of Defense (Health Affairs). The
DoD Instruction was certified current on September 30, 2011. Appendix B includes a list
of the required reporting data elements.

Deployed Service members are potentially subject to occupational and environmental
hazards that can include exposure to harmful levels of environmental contaminants, such
as industrial toxic chemicals, chemical and biological warfare agents, or radiological and
nuclear contaminants. These hazards may include contamination from the past use of a
site, battle damage, stored stockpiles, military use of hazardous materials, or from other
sources. Harmful levels include high-level exposures that result in immediate health
effects and low-level exposures that could result in delayed or long-term health effects.

Collecting deployment information will allow the Military Health System to identify
populations at risk for occupational and environmental exposures that may need medical
follow-up. Improving timeliness of treatment will have a positive effect on readiness and
long-term wounded warrior care.




                                            1
Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified an internal
control weakness for the Assistant Secretary of the Navy (Manpower and Reserve
Affairs) (ASN[M&RA]). Specifically, the Navy did not establish roles and
responsibilities for implementing the DoD Instruction that required reporting daily
location of deployed Service members. We will provide a copy of the report to the senior
official responsible for internal controls at ASN(M&RA).




                                           2
Finding. Army, Air Force, and Marine Corps
Reported Location Data, but the Navy
Did Not
The Army, Air Force, and Marine Corps reported the daily location of deployed Service
members; however, the Navy did not report the required deployment information. This
occurred because the Office of the ASN(M&RA) did not task the appropriate Navy
commands to establish roles and responsibilities for implementing the DoD Instruction
that required reporting daily deployment information. As a result, DMDC did not have
comprehensive DoD daily Service member deployment records. Users require
comprehensive records to monitor, assess, and control or reduce health risks from Service
member exposures to occupational and environmental hazards.

Army, Air Force, and Marine Corps Implemented Daily
Location Reporting
The Army, Air Force, and Marine Corps extracted daily location of deployed Service
member data from Service specific systems and reported this information electronically
to DMDC, as required by the DoD Instruction. See Appendix B for details on Service
compliance with required reporting data elements.

Army Reported Using the Deployed Theater Accountability
System
The Army used the Deployed Theater Accountability System (DTAS), a worldwide
real-time in theater personnel accountability system, to capture and report weekly the
data elements required by the DoD Instruction. The Army Human Resource Command
executed the reporting requirement through a System Interface Agreement with the Army
Program Executive Office for Enterprise Information Systems (PEO-EIS). Army
PEO-EIS personnel extracted deployed Service member location data from DTAS and
transferred the file to DMDC over the Secure Internet Protocol Router Network
(SIPRNET). According to Army PEO-EIS personnel, the Army relied on DTAS to track
the physical location of assigned and attached active duty Service members, including
those supporting contingency operations since 2004. Army personnel provided
documentation that showed DTAS operates in remote locations, maintains personnel
location information while disconnected from the network, synchronizes and updates
location information once network connections are re-established, and interfaces with
other DoD systems by extracting and providing location information on a daily basis.
Unit level mobile stations were the main source used to collect Service member
information, such as name, social security number, duty status, unit affiliation, and
location coordinates.

Army PEO-EIS personnel provided us with program scripts used to extract data weekly
and twice monthly in support of the Service member location information reported to



                                           3
DMDC. Army PEO-EIS personnel extracted data consisting of Service member
transitions that occurred during the week and transferred the extract to the DMDC server
each Friday. Additionally, Army PEO-EIS personnel provided DMDC a comprehensive
history of personnel deployment information on the 1st and 16th of each month. We
validated that the Army included data elements required by the DoD Instruction.

Air Force Reported Using the Deliberate and Crisis Action
Planning and Execution Segments System
The Air Force reported daily location information of deployed Service members using the
Deliberate and Crisis Action Planning and Execution Segments (DCAPES) system.
DCAPES includes operation plan requirements and monitoring resource capabilities.
DCAPES has the capability to report and query information on deployed personnel and
their deployment histories, to include automatic updating of Service member duty status.
The primary users of DCAPES are at the base level and each command provides
personnel who access the system through the SIPRNET.

The Air Force Personnel Support for Contingency Operations (PERSCO) teams
accounted for transient forces that spent at least one night at a location. PERSCO teams
assisted the deployed commander in achieving accountability of deployed forces by
tracking and updating personnel reports. PERSCO teams identified force status changes
for arrivals, departures to home station and forward deployments, temporary duty status
changes, and strength figures. Daily transaction registers produced within DCAPES
showed changes for the PERSCO teams and home stations.

According to Air Force Personnel Center (AFPC) personnel, in 2003, AFPC and DMDC
entered into an agreement, “Memorandum of Agreement (MOA) & Interface
Requirements Agreement Between the Air Force DCAPES system and Department of
Defense Manpower Data Center (DMDC) Deployment File,” to govern the transfer of
data between the two activities. The agreement established the arrangement between the
Air Force and DMDC to meet the minimum reporting requirements in the
DoD Instruction.

AFPC personnel extracted data from DCAPES to create two files of deployed Service
members. One file contained all Service members currently deployed, and one file
contained a complete history of all Service members deployed. AFPC personnel
produced both files weekly and transferred the files to the DMDC server over the
SIPRNET. We validated that AFPC personnel reported all data elements required by the
DoD Instruction.

Marine Corps Reported Using the Secure Personnel
Accountability System
The Marine Corps reported daily location information of deployed Service members
using the Secure Personnel Accountability (SPA) system. The SPA system is the official
system of records for deployed Marines and enables Marine Corps operational
commanders to account for deployed operational forces worldwide. In 2004, the Marine



                                            4
Corps relied on the Army DTAS for Marine location reporting during operational
deployments. In 2007, the Marine Corps awarded a contract for SPA development, and
in 2009, the II Marine Expeditionary Force operating in the U.S. Central Command area
of responsibility was the first group of deployed Marines to deploy SPA. The Marine
Corps transitioned from DTAS to SPA with Marine Corps Administrative Message
007/11, “Mandating the Corps-Wide Use of Secure Personnel Accountability (SPA)
System for Operational Deployment,” January 4, 2011, that stated all U.S. Marine Corps
forces deployed for any contingency or combat operation will use SPA to account for
their personnel.

Personnel at U.S. Marine Corps, Manpower and Reserve Affairs, explained that SPA
provided real-time accountability of deployed Service members and allowed users to
document and store daily individual location data. SPA included individual Marine
personnel data, such as name, rank, Military Occupational Specialty, and gender. Also,
the SPA included deployment status, unit assignment, and physical location data. SPA
retained information from the time a Marine first deployed until separation from the
Marine Corps. Unit personnel at deployment locations entered location information to
secure terminals and forwarded daily location information, through the SIPRNET, to the
Marine Corps Hosting Center in Quantico, Virginia. Then, the Hosting Center
transmitted the location information over the SIPRNET to DMDC weekly. Manpower
and Reserve Affairs personnel at Quantico, Virginia, provided us access to SPA on the
SIPRNET. We verified that SPA maintains personnel location information and we
validated that the SPA system includes the data elements required by the DoD
Instruction. We also reviewed the electronic response that indicated the records were
successfully transferred to DMDC.

Navy Did Not Report Daily Location Data
Personnel from DMDC, Chief of Naval Operations, and Navy Personnel Command
stated the Navy did not report required daily location data of deployed Service members
to DMDC. In the absence of Navy Service member location data reporting, DMDC
extracted information from data that the Navy reported to address other requirements.
The Navy used Individual Personnel Tempo (ITEMPO) data to satisfy the requirement in
Public Law 106-65, “ National
Defense Authorization Act for 2000,”          The Navy did not report required daily
October 5, 1999, that mandated the          location data of deployed Service members
Military Departments to implement a                          to DMDC.
system to track and manage, on an individual basis, the personnel tempo of every
member of the Armed Forces. However, the information contained in ITEMPO did not
include all the data elements required by the DoD Instruction for daily location reporting,
most notably the location elements. See Appendix B for the Navy data elements not
reported.

Appropriate Navy Commands Not Tasked
The Office of the ASN(M&RA) did not task appropriate Navy commands to establish
roles and responsibilities for implementing the DoD Instruction that required reporting



                                             5
the daily location of deployed Service members. SECNAV Instruction 5430.7N,
“Assignment of Responsibilities and Authorities in the Office of the Secretary of the
Navy,” June 9, 2005, which was in effect when the DoD Instruction was issued, defines
the Office of the ASN(M&RA) responsibilities. * One of the responsibilities was to act as
the approving authority, on behalf of the Secretary of Navy when coordinating DoD
issuances, specifically the issuances for the Under Secretary of Defense for Personnel and
Readiness.

The ASN(M&RA) submitted comments on the formal coordination of the draft DoD
Instruction to the Assistant Secretary of Defense (Health Affairs). Regarding the section
of the draft DoD Instruction concerning daily location reporting, the Navy concurred with
minor comments. According to DoD Instruction 5025.01, “DoD Directives,”
October 28, 2007, after formal comments were resolved, Washington Headquarters
Service (WHS) distributed the DoD issuances, to include DoD Instructions.

WHS distributes unclassified issuances electronically by posting it to the DoD Issuances
Web site. According to personnel at the WHS Directive Division, the DoD Component
who has approving authority in the coordination process for a DoD issuance, is
responsible for accessing the Web site periodically to check for the release of a DoD
issuance. Although a formal notification process for released DoD issuances does not
exist, personnel can subscribe to an e-mail notification process.

Personnel from the Office of the ASN(M&RA) could not explain why the DoD
Instruction was not tasked to the proper Navy commands. Because the DoD Instruction
was not tasked to the appropriate Navy commands for implementation, the Navy did not
establish roles and responsibilities for daily location reporting of deployed Service
members.

Lack of Complete Data Hinders the Ability to Monitor
Potential Hazardous Exposures
Without Navy deployment data, DMDC does not have comprehensive DoD daily
location records available for users to monitor, assess, and control or reduce health risks
from Service member exposures to occupational and environmental hazards. An example
of the usefulness of daily location data is illustrated in DoD OIG Report No.
SPO-2010-006, “Exposure to Sodium Dichromate at Qarmat Ali, Iraq in 2003,”
September 17, 2010. The audit concluded that because of the absence of complete
personnel, duty, and other relevant records for individuals who served near Qarmat Ali in
2003, it was not possible to determine with precision if all exposed individuals were
identified, contacted, and offered medical care.



*
 SECNAV Instruction 5430.7Q “Assignment of Responsibilities and Authorities in the Office of the
Secretary of the Navy,” August 17, 2009; superseded SECNAV Instruction 5430.7N; however, the
approving authority responsibilities for the ASN(M&RA) did not change.



                                                  6
If personnel experience medical problems related to exposures, DoD must ensure they
have access to appropriate medical care for all conditions related to their military service.
If a hazardous site is identified, agencies or departments can use the personnel
deployment information maintained at DMDC to identify potentially affected personnel
for medical evaluation and treatment. In addition, deployment location data for Service
members can assist in identifying potential exposure sites. Analyzing the location
histories of Service members that exhibit post-deployment symptoms of occupational or
environmental exposure can assist in identifying hazardous locations.

Recommendation, Management Comments, and Our
Response
We recommend the Assistant Secretary of the Navy (Manpower and Reserve
Affairs) task the appropriate commands to establish roles and responsibilities for
implementing daily location reporting for deployed Service members required by
DoD Instruction 6490.03, “Deployment Health,” August 11, 2006.


Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Comments
The Assistant Secretary of the Navy (Manpower and Reserve Affairs) agreed with the
recommendation. He stated the Defense Integrated Military Human Resources System
(DIMHRS) was the Navy’s personnel reporting solution, but it was canceled in
February 2010 due to compatibility problems between DIMHRS and numerous legacy
data systems. Upon reviewing the discussion draft, the Secretary of the Navy issued a
memorandum on March 23, 2012, directing the Chief of Naval Operations to develop a
plan of action and milestones within 3 months, outlining the way to achieve compliance
with the location reporting requirements of DoD Instruction 6490.03, “Deployment
Health,” August 11, 2006.


Our Response
Comments from the Assistant Secretary of the Navy (Manpower and Reserve Affairs)
were responsive, and the action met the intent of the recommendation. As of
June 29, 2012, the Chief of Naval Operations did not provide a plan of action and may
request an extension of the due date. No further comments are required.




                                              7
Appendix A. Scope and Methodology
We conducted this performance audit from June 2011 through April 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

We focused our review to evaluate the status of the Military Departments’
implementation of daily Service member location tracking and weekly reporting to
DMDC. We interviewed personnel in the Office of the Joint Chiefs of Staff to review
assistance provided to the Office of the Secretary of Defense (Health Affairs) in
determining the Services and Combatant Commands compliance with the requirements of
the DoD Instruction. We met with personnel from the Office of the Assistant Secretary
of Defense (Health Affairs) to determine their role and concerns with daily location
reporting. We met with representatives from the Services Human Resource or Personnel
Commands to determine responsible activities and Service-specific procedures. We met
with personnel from various Army, Navy, Air Force, and Marine Corps activities to
evaluate compliance with reporting requirements outlined in the DoD Instruction. We
interviewed U.S. Central Command personnel to determine their role in daily location
reporting, and we interviewed DMDC personnel to determine the inputs received from
each Service, to include systems and data elements. We reviewed and analyzed Service
guidance for daily location reporting and we determined Service compliance with data
elements listed in Enclosure 5 of DoD Instruction 6490.03, “Deployment Health,”
August 11, 2006.

Use of Computer-Processed Data
We reviewed computer processed data showing that the Army, Air Force, and Marine
Corps appropriately reported certain data elements from DTAS, DCAPES, and SPA
respectively. We did not evaluate the accuracy of deployment location data, only that the
data elements existed. This did not affect the findings or conclusions in the report.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Office of Inspector General (DoD IG), and the Navy issued three reports
discussing the need for or the systems used in reporting of daily location of deployed
service members. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/. Naval Audit Service reports are not available over the Internet.




                                            8
GAO
GAO Report No. GAO-11-63, “Afghanistan and Iraq: DOD Should Improve Adherence
to Its Guidance on Open Pit Burning and Solid Waste Management,” October 15, 2010

DoD IG
SPO-2010-006, “Exposure to Sodium Dichromate at Qarmat Ali, Iraq in 2003-
Part I-Evaluation of Efforts to Identify, Contact and Provide Access to Care for
Personnel,” September 17, 2010

Navy
N2009-0032, “Marine Corps Use of the Deployed Theater Accountability System,”
June 4, 2009




                                            9
Appendix B. Service Compliance With
Required Reporting Data Elements
      Reporting Data Elements Required by                             Army        Navy        Air        Marine
             DoD Instruction 6490.03                                                         Force       Corps
DoD Electronic Data Interchange Person Identifier1
Member Social Security Number                                          Yes         Yes        Yes          Yes
Service Branch Code                                                    Yes         Yes        Yes          Yes
Uniformed Service Organization Component Code                          Yes         Yes        Yes          Yes
Member Surname Text                                                    Yes                    Yes          Yes
Member Forename Text                                                   Yes                    Yes          Yes
Member Middle Initial Text                                             Yes                    Yes          Yes
Member Birth Calendar Date                                             Yes                    Yes          Yes
Assigned Unit Identification Code                                      Yes         Yes        Yes          Yes
Attached Unit Identification Code                                      Yes         Yes        Yes          Yes
Deployment Start Date                                                  Yes         Yes        Yes          Yes
Deployment End Date                                                    Yes         Yes        Yes          Yes
Operation Plan Identification Code                                     Yes                    Yes          Yes
Location Start Date                                                    Yes                    Yes          Yes
Location End Date                                                      Yes                    Yes          Yes
Location Longitude Coordinate Code2
Location Longitude Direction Code2
Location Latitude Coordinate Code2
Location Latitude Direction Code2
Grid Coordinate Code2                                                  Yes                                 Yes
Geolocation Code2                                                                             Yes
Location Country Code                                                  Yes                    Yes          Yes
Location State Code                                                    Yes                    Yes          Yes
Location Calendar Date                                                 Yes                    Yes          Yes
Operation Name Text                                                    Yes                    No3          Yes




1
  Not required for Services not using the Common Access Card in their deployment location reporting.
2
  Services are required to report either longitude/latitude codes, grid coordinate code, or geolocation code.
3
  According to AFPC personnel, operation name not reported but available upon request.



                                                      10
Assistant Secretary of the Navy (Manpower and Reserve
Affairs) Comments




                     Click to add JPEG file




                                  11
Click to add JPEG file




             12
